OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S FISCAL
YEAR 2014 COMPLIANCE WITH
THE FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-000-15-003-P
October 30, 2014



WASHINGTON, DC
This is a summary of our report on the “Audit of USAID’s Fiscal Year 2014 Compliance With the
Federal Information Security Management Act of 2002.” Referred to as FISMA, the act requires
agencies to develop, document, and implement an agency-wide information security program to
protect their information and information systems, including those provided or managed by
another agency, contractor, or source. FISMA also requires agencies to have an annual
assessment of their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Cotton & Company LLP to conduct the audit. Cotton was required to conduct
the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether USAID implemented selected minimum security controls for selected
information systems in support of FISMA.

The audit concluded that USAID does not comply with FISMA. Although the Agency has
developed and documented the majority of the information security policies and procedures
required under the act, USAID has not established an effective risk management program to
ensure that policies and procedures are assessed and working as intended. Consequently, the
audit found a number of information system weaknesses that, if exploited, could adversely affect
the confidentiality, integrity, and availability of USAID’s data and information systems, and
ultimately could have a negative impact on the Agency’s ability to protect the security of its
information or information systems.

OIG made 18 recommendations to address the weaknesses identified and to help USAID
strengthen its information security program. Management decisions were made on all of them.
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, D.C. 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           http://oig.usaid.gov
